COCKLE

2311 Douglas Street E-Mail Address:
Omaha, Nebraska 68102-1214 CAL eel 3 riefs contact @eocklelegarieB.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-342

MARK F. MCCAFFREY,
Petitioner,
v.
MICHAEL L. CHAPMAN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE NATIONAL
FRATERNAL ORDER OF POLICE, AS AMICUS CURIAE IN SUPPORT OF PETITIONER
MARK F. MCCAFFREY in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and

10 point for the footnotes, and this brief contains 5249 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska <+ LE Quid ,
My Commission Expires Nov 24, 2020 d

Notary Public Affiant

 

38767
